1

No.

IN THE

SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Petitioner,
v.
STATE OF MICHIGAN,
OAKLAND COUNTY CIRCUIT COURT JUDGE, Respondent:
PROOF OF SERVICE
I, Mario Allan Montano, do swear or declare that on this date, November 10, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF CERTIORARI, APPENDIX,
THIS PROOF OF SERVICE on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Honorable Kameshia D. Gant, Courtroom 2A, Oakland County Courthouse, 1200 N. Telegraph
Rd., Dept. 404 , Pontiac, MI 48341.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 10, 2020.

Mario Allan Montano
Petitioner

